   April 15, 2003




Information Technology
Management

Global Command and Control
System Joint Operation Planning
and Execution System
(D-2003-078)




               Department of Defense
           Office of the Inspector General
Quality               Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CJCS                  Chairman, Joint Chiefs of Staff
COTS                  Commercial Off-the-Shelf
DAES                  Defense Acquisition Executive Summary
DISA                  Defense Information Systems Agency
EAS                   Evolutionary Acquisition Strategy
EPIP                  Evolutionary Phased Implementation Plan
GCCS                  Global Command and Control System
JOPES                 Joint Operation Planning and Execution System
RID                   Requirements Identification Document
         Office of the Inspector General of the Department of Defense
Report No. D-2003-078                                                     April 15, 2003
  (Project No. D2001LG-0101.02)

             Global Command and Control System Joint Operation
                       Planning and Execution System

                                  Executive Summary

Who Should Read This Report and Why? This report should be read by those who
develop the Global Command and Control System (GCCS) requirements and by program
implementers, functional proponents, and members of the joint planning and execution
community. The report discusses the development and fielding of the Joint Operation
Planning and Execution System (JOPES).

Background. This is one in a series of reports the Inspector General of the Department
of Defense is issuing on the policies and procedures that govern GCCS. The GCCS is the
DoD joint command and control system designed to provide the military leadership with
tools to plan and execute worldwide joint military operations. JOPES is a GCCS
component system used to plan and execute joint deployments. JOPES Classic currently
supports the joint deployment process, and JOPES 21 is the proposed system designed to
improve support to the JOPES user community.

Results. The Defense Information Systems Agency and the Joint Staff have been unable
to meet fielding milestones for JOPES 21 and will not field the component until
March 2004. As of October 2002, the proposed fielding date has slipped 46 months.
Further, if fielded as planned in 2004, the operating system supporting JOPES 21 will be
two software generations out of date. As a result, the Defense Information Systems
Agency spent about $28.4 million to develop JOPES 21 from April 1998 through
July 2002 without fielding an automated system that meets user requirements. The
GCCS program manager needs to develop essential acquisition documents for improved
oversight of JOPES, to include a contracting strategy to address high-risk development,
an acquisition program baseline to help monitor progress in meeting user requirements
within resource constraints, and an integrated logistic support plan to address projected
software obsolescence. The Director for Operations (J-3), Joint Staff should ensure the
GCCS requirements documents accurately reflect current determinations as to necessary
requirements, to include adding the requirement for a deployable JOPES 21 database.
(See the Finding section of the report for the detailed recommendations.)

Management Comments and Audit Response. The Defense Information Systems
Agency concurred with the recommendations; their comments are responsive. The Joint
Staff concurred with comment, suggesting minor changes in the draft recommendation to
more fully conform to the authority of the Chairman of the Joint Chiefs of Staff and his
directors. As a result of Joint Staff comments, we revised and redirected the
recommendation to ensure the system requirements documents reflect determinations as
to requirements. We request that the Director for Operations (J-3), Joint Staff provide
comments on the recommendation by June 16, 2003. See the Finding section of the
report for a discussion of management comments and the Management Comments
section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                                          i

Background                                                                1

Objectives                                                                2

Finding
     Development and Fielding of Joint Operation Planning and Execution
        System 21                                                         3

Appendixes
     A. Scope and Methodology                                             14
          Management Control Program Review                               15
     B. Prior Coverage                                                    17
     C. Report Distribution                                               18

Management Comments
     Joint Staff                                                          21
     Defense Information Systems Agency                                   24
Background
    Joint Operation Planning and Execution Process. The joint operation planning
    and execution process provides the framework for the Secretary of Defense and
    combatant commands to coordinate their efforts in the execution of complex
    multi-Service exercises, campaigns, and operations. In executing joint
    operations, at least one supported combatant command is responsible for
    deploying, executing, and redeploying forces and equipment in order to
    accomplish the assigned mission. Supporting combatant commands provide the
    timely and complete support needed to accomplish the mission.

    Global Command and Control System. The Global Command and Control
    System (GCCS) is the DoD joint command and control system used to provide
    accurate, complete, and timely information for the operational chain of command.
    GCCS consists of the hardware, software, common procedures, standards, and
    interfaces that make up an “operational architecture” and provides worldwide
    connectivity with all levels of command. GCCS incorporates systems that
    provide situational awareness, support for intelligence, force planning, readiness
    assessment, and deployment applications that battlefield commanders require to
    effectively plan and execute joint military operations.

    Joint Operation Planning and Execution System. As one of the many
    component systems that resides on GCCS, the Joint Operation Planning and
    Execution System (JOPES) helps senior-level decision makers and their staffs to
    plan and conduct joint military operations. War planners use JOPES to identify
    types of forces and logistics support required, establish the sequence for moving
    forces, and manage the deployment process to sustain an operation plan.

            JOPES Classic. JOPES Classic has supported the joint planning and
    execution community for 13 years. In 1996, when GCCS became the joint
    command and control system of record, JOPES Classic applications were
    transferred to GCCS from the Worldwide Military Command and Control
    System.1 The Joint Staff decided not to provide immediate enhancements to the
    JOPES application but to wait until requirements had been developed for a
    follow-on system.

            21st Century JOPES. In 1998 the Defense Information Systems Agency
    (DISA) started development of JOPES 2000, a significant enhancement and
    product improvement of JOPES Classic that included Oracle database products
    and a consolidated database architecture. Fielding of JOPES 2000 was projected
    for May 2000 but was delayed. In March 2002, the Director for Operations, Joint
    Staff renamed JOPES 2000 to JOPES 21. For this report we use the JOPES 21
    name.


    1
        The Worldwide Military Command and Control System was the primary global command and
        control system between the 1960s and 1996. The Worldwide Military Command and Control
        System also supported the automated data processing portion of JOPES.



                                              1
    Requirements Validation. The Joint Staff and GCCS users participate in
    requirements validation for JOPES.

            Joint Staff. The Joint Staff, as the project sponsor for all GCCS
    applications, represents the needs of the users. Through the requirements
    validation and approval process, the Joint Staff identifies and prioritizes
    functional requirements GCCS must satisfy.

           User Community. JOPES users work within the combatant commands,
    the Services, the Joint Staff, and selected Defense agencies. Key JOPES users
    meet regularly as members of the JOPES User Advisory Group to discuss issues
    involving current functionality and to identify and prioritize GCCS service
    problems and replacement applications.

    System Development and Implementation. The Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) and DISA have key roles
    in the development and implementation of systems residing on GCCS.

            Assistant Secretary of Defense (Command, Control, Communications,
    and Intelligence). The Assistant Secretary provides functional and acquisition
    control over GCCS through review and approval of the acquisition strategy, block
    implementation plans, and program baseline goals. The Assistant Secretary also
    serves as the Chief Information Officer for DoD.

            DISA. As the centralized program manager for GCCS, DISA directs
    design, development, acquisition, integration, testing, fielding, and baselines for
    GCCS applications.


Objectives
    This is one in a series of reports the Inspector General of the Department of
    Defense is issuing on the policies and procedures that govern GCCS. The overall
    objective was to evaluate the joint functionality, system integration, and operation
    of GCCS. The specific objective for this segment of the audit was to determine
    whether the development of an enhanced JOPES capability has satisfied the needs
    of the warfighter. We also evaluated the management control program as it
    related to the audit objective. See Appendix A for a discussion of the audit scope
    and methodology and our review of the management control program. See
    Appendix B for prior coverage related to the audit objectives.




                                          2
                Development and Fielding of Joint
                Operation Planning and Execution
                System 21
                DISA and the Joint Staff have been unable to meet fielding milestones for
                JOPES 21. As of October 2002, the projected JOPES 21 fielding dates
                have slipped a total of 46 months to March 2004. Although the GCCS
                Evolutionary Phased Implementation Plan classified JOPES 21 fielding as
                high risk, DISA, the Joint Staff, and the Assistant Secretary of Defense
                (Command, Control, Communications, and Intelligence) tailored critical
                acquisition requirements for the GCCS component in a manner that
                weakened program controls and oversight over its development. As a
                result, from April 1998 through July 2002, DISA spent about
                $28.4 million to develop JOPES 21 and another $6 million to maintain
                JOPES Classic2 under two contracts, one with Science Application
                International Corporation and one with Pragmatics, without fielding an
                automated system that meets user requirements.


Criteria
     The Clinger-Cohen Act of 1996 (Public Law 104-106) and the Federal
     Acquisition Regulation provide guidance applicable to managing and acquiring
     information technology resources and services.

     Clinger-Cohen Act. The Clinger-Cohen Act requires that managers implement
     deliberate processes for maximizing value and managing risks associated with the
     acquisition of information technology. Section 5002 of Public Law 104-106
     (section 1401, title 40, United States Code [U.S.C.]) defines information
     technology as an interconnected system used in the automated management of
     data information, including software and services. Section 5125 (40 U.S.C. 1425)
     states that the chief information officers of executive agencies are responsible for:

                •   providing advice and other assistance to the head of the executive
                    agency and other senior management to ensure that information
                    technology is acquired and information resources are managed
                    effectively; and

                •   monitoring the performance of information technology programs of
                    the executive agency, evaluating the performance of those programs,
                    and advising the head of the executive agency whether to continue,
                    modify, or terminate a program.


     2
         In comments provided on the draft report, DISA stated that JOPES Classic expenditures totaled
         $19.7 million. We were unable to verify the means DISA used to segregate JOPES Classic and
         JOPES 21 costs.



                                                  3
     Federal Acquisition Regulation. The Federal Acquisition Regulation is the
     primary regulation used by all Federal executive agencies in their acquisition of
     supplies and services with appropriated funds. The Federal Acquisition
     Regulation discusses in detail requirements for selecting the appropriate contract
     type and the need for comprehensive acquisition planning.


Fielding Milestones
     DISA and the Joint Staff have been unable to meet fielding milestones for
     JOPES 21. In October 1997, the original requirement for JOPES was to fix
     database synchronization problems3 and improve performance of the system.
     DISA stated, at that time, that GCCS version 3.0, projected for fielding in
     June 1998, would address those requirements. When GCCS version 3.0 did not
     resolve the synchronization and performance problems, DISA started
     development of JOPES 21, with a projected completion date of May 2000. As of
     October 2002, the projected JOPES 21 fielding dates had slipped a total of
     46 months to March 2004.

     Approach to Fielding JOPES 21. DISA and the Joint Staff underestimated the
     complexity of resolving JOPES Classic shortfalls. JOPES Classic was built on an
     architecture of 16 database servers located worldwide. In the “JOPES Database
     Server Study,” (the Study) November 4, 1997, the Gartner Group, a DISA
     consultant, recommended consolidating the database servers into four (two
     located in the United States and two overseas) because that configuration would
     provide the required operational support and sufficient geographic dispersion4 as
     well as an opportunity to more effectively address database synchronization
     problems. The Study recommended an approach that resulted in longer response
     times to users and stated that bandwidth connectivity issues would be “tolerable.”
     To retain the same connectivity provided by JOPES Classic, consolidating the
     databases required upgrades to the entire network. In June 1998 the Joint Staff
     directed DISA to proceed with database reengineering. The new requirement of
     consolidating databases proved to be complex because of network connectivity,
     network performance, and deployability requirements.

     In January 1999, a DISA and Joint Staff panel recommended the replacement of
     all government off-the-shelf products5 with Oracle database applications as a
     quick solution to problems with JOPES Classic. The Joint Staff directed DISA to
     replace government off-the-shelf products with commercial off-the-shelf (COTS)
     products. DISA and the Joint Staff selected Oracle’s Multi-Master Shared
     Ownership technique as the best method to facilitate JOPES database

     3
         To operate effectively, JOPES 21 requires accurate, consistent, and timely data. JOPES Classic
         often feeds incorrect or expired data in support of specific operation plans because the system
         was unable to recognize the sequence that data should have been processed.
     4
         The report stated that geographic proximity is important to database servers because one incident
         that affects a database will probably affect the other database in the same location.
     5
         A government off-the-shelf product is typically created by the technical staff within a
         government agency or by an external entity with government funding and specifications.



                                                   4
synchronization. DISA stated that the multi-master replication technique had
been proven in a number of industry applications and would provide the
capability to replicate and maintain complete copies of JOPES deployment data at
all master sites.6 Because JOPES Classic already used older Oracle products,
DISA expected that staying with the Oracle brand would ease the migration to
JOPES 21, be easier to operate, and provide good performance. The requirement
to add commercial software proved to be more complex than expected because
commercial products were not tailored to meet government processes.

Testing Results. In June and November 1999, DISA performed demonstrations
to expose JOPES users to the proposed new capabilities of JOPES 21. The
June 1999 demonstration identified performance problems with JOPES 21.
System response and performance of the new applications were noticeably slower
than current applications, numerous capabilities were not functioning, and it was
uncertain whether synchronization of the databases had been achieved. The U.S.
Central Command participated in a demonstration test7 in January 2000. After the
demonstration test, U.S. Central Command users expressed concern about
communication outages, missing functionalities, and database master errors.

In the December 1999 Defense Acquisition Executive Summary (DAES), the
GCCS program manager reported the projected completion date for JOPES 21
would be May 2000. DAES reports, in general, serve the function of providing
quarterly feedback to Milestone Decision Authorities on program execution
against baselines as needed for effective oversight between milestones. In the
September 2001 DAES report, the GCCS program manager revised the JOPES 21
fielding date to June 2002 in order to complete further testing and make
additional developmental modifications. Between September 2001 and June
2002, DISA had exposed JOPES 21 to two system integration tests. DISA stated
that the terrorist events of September 11, 2001, led to a change in GCCS
requirements. The terrorist events of September 11, 2001, also led to a 2-month
delay in scheduled testing. The results of a fourth system integration test showed
that the Oracle replication tool did not adequately synchronize the databases. A
fifth system integration test identified 279 problems with JOPES 21 development
and precipitated additional fielding delays. In March 2002, DISA again revised
the projected fielding date to at least March 2003 in order to resolve the
differences between new requirements and existing work performed. On March
28, 2002, the Joint Staff approved the JOPES Key Performance Parameters,
which formalized the requirements necessary to correct perceived shortfalls with
JOPES Classic. As a result of the formalized requirements and configuration
changes, the GCCS Block Implementation Plan IV designates the objective
release date of March 2004 for JOPES 21. The chronology of missed milestones
is presented in Table 1.



6
    JOPES deployment data required at all master sites, as identified in 1998, includes operation
    plans, unit characteristics data, equipment type data, scheduling and movement data, and
    geographical location data.
7
    The demonstration test was a scripted demonstration and incorporated some testing
    methodologies.



                                              5
                                 Table 1. JOPES 21 Fielding Delays
                                             Projected Completion       Time Past Initial
                   Documentation                     Date                Fielding Date
               DAES December 1999                   May 2000                  N/A
              DAES September 2001                   June 2002           2 years, 1 month
                 DAES March 2002             Earliest March 2003      Greater than 3 years
               BIP* IV October 2002              March 2004           3 years, 10 months

              * Block Implementation Plan.




Tailored Critical Acquisition Requirements
    JOPES 21 is a high-risk component system of GCCS. Although the “Global
    Command and Control System (GCCS) Transitional Evolutionary Phased
    Implementation Plan (EPIP) for Phase III,” (EPIP III) September 29, 2000,
    classified JOPES fielding as high risk, DISA, the Joint Staff, and the Assistant
    Secretary of Defense (Command, Control, Communications, and Intelligence)
    tailored critical acquisition requirements for the GCCS component in a manner
    that weakened program controls and oversight over its development. With high-
    risk component systems, stringent controls are needed to ensure program success.

    Governing Program Documentation. The “Global Command and Control
    System (GCCS) Evolutionary Acquisition Strategy, Revision 2.2,” (EAS)
    July 14, 2000; the “Global Command and Control System (GCCS) Phase IV
    Requirements Identification Document (RID),” October 6, 2000 (RID IV); and
    the EPIP III were the three primary umbrella documents governing the execution
    of the GCCS program. The EAS identifies the streamlined acquisition and
    program management practices that support the rapid development and
    implementation of the GCCS program. JOPES 21 is one of many component
    systems of the GCCS program. The RID forms the basis for development of the
    EPIP. The Joint Staff signed the RID IV, but as of October 20028 the
    corresponding GCCS EPIP supporting Phase IV had not been approved by the
    GCCS Milestone Decision Authority. EPIP III defined technical solutions, cost,
    schedule and performance parameters, and other information vital to managing
    the development and fielding of GCCS Phase III capabilities. EPIP III also
    classified the fielding of JOPES as high risk.


    8
        The Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
        directed that EPIP IV be renamed Block Implementation Plan IV and approved an Acquisition
        Decision Memorandum and Acquisition Program Baseline for Block Implementation Plan IV on
        October 28, 2002.



                                                6
Evolutionary Acquisition Strategy. The GCCS EAS, which was developed by
the DISA GCCS Program Management Office and approved by the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence),
established the methodology used to implement acquisition and program
management oversight for the GCCS program. The strategy aligns traditional
acquisition milestone activities with the GCCS development phases and identifies
roles and responsibilities and key business practices associated with GCCS
acquisition and program management products and processes. It does not address
specific components of the GCCS program.

        Contracting Strategy. The GCCS EAS does not provide an adequate
contracting strategy to address high-risk development projects. EPIP III
classified the risks for fielding JOPES 21 as high based on functional, operational,
and technical assessments. However, the DISA program manager did not adjust
the contract type to provide the contractor reasonable risk and greater incentives
to complete the project. Federal Acquisition Regulation 16.103(a), “Negotiating
Contract Type,” September 2001 edition,9 states:

               The objective is to negotiate a contract type and price (or estimated
               cost and fee) that will result in reasonable contractor risk and provide
               the contractor with the greatest incentive for efficient and economical
               performance.

Federal Acquisition Regulation 16.306(b), “Cost-Plus-Fixed-Fee Contracts,”
states:
               A cost-plus-fixed-fee contract normally should not be used in
               development of major systems once preliminary exploration, studies,
               and risk reduction have indicated a high degree of probability that the
               development is achievable and the Government has established
               reasonably firm performance objectives and schedules.

DISA elected to use a cost-plus-fixed-fee contract type for JOPES 21 database
development as part of the Defense Information Infrastructure contract. DISA
stated that the Defense Information Infrastructure contract would provide the
expertise to coordinate the complex interactions of the tasks that create, build, and
operate the infrastructure. A task order was issued in 1998 under an
indefinite-delivery, indefinite-quantity contract and was renewed annually over
4 consecutive years. Cost-plus-fixed-fee contracts reimburse the contractor for all
costs as well as pay a negotiated fee that is fixed at the inception of the contract
and continues over the term of the tasking. A cost-plus-fixed-fee contract
provides the contractor only a minimum incentive to control costs or to complete
the project quickly because it does not include measurable performance standards
or performance penalties and incentives.




9
    The March 1998 edition of the Federal Acquisition Regulation was the current edition when
    JOPES 21 was added to contract DCA100-97-D-0043; however, the wording in this section is
    identical in both editions.



                                             7
       Performance-Based Service Contracting. In selecting the Defense
Information Infrastructure Integration contract, DISA stated that the risk was high
and that there was concern for a potential overlap with other DISA contracts. To
achieve greater cost savings, however, and better results in government
contracting, Congress and the administration have encouraged greater use of
performance-based service contracts.10 Under that type of contract, contractors
are provided as much freedom as possible in figuring out how best to meet the
government’s performance objective. Performance-based contracts encourage
contractors to be innovative and to find cost-effective methods for delivering
services. Additionally, performance-based service contracts generally should
have the following attributes.

       •   Describe what outcomes the government is looking for and leave it up
           to the contractor to decide how best to achieve those outcomes.

       •   Set measurable performance standards.

       •   Describe how the contractor’s performance will be evaluated in a
           quality assurance plan.

       •   Include performance penalties and incentives as appropriate.

DISA should negotiate performance-based service contracts for the development
and fielding of GCCS high-risk components.

Requirements Identification Document. RID IV, which was developed by the
Joint Staff, provides a brief description of requirements for JOPES 21 in ranked
order based on criteria expressed in the goals of the “GCCS Strategic Plan
1999-2002,” December 27, 1999. JOPES 21 requirements support strategic goals
for force planning, force deployment and redeployment, and force sustainment.
RID IV also contains key performance parameters for the ranked JOPES 21
requirements. The EAS states:
           In the GCCS evolutionary acquisition paradigm, the RID is the
           functional equivalent of the time-phased Operational Requirements
           Document (ORD) and lists the incremental requirements that are to be
           met through the various IT [information technology] layers and phases
           of GCCS.

However, RID IV does not address several specific performance requirements
necessary to meet an operational need for JOPES 21. Although the JOPES
component was identified as high risk, RID IV does not discuss the shortcomings
of existing systems; command, control, communications, computers, and
intelligence support requirements architectures; and computer resource
constraints. RID IV does not identify all requirements in output-oriented and
measurable terms, or define the expected mission capability in various
environments. In addition, RID IV does not address the combatant commands’
long-standing requirement for a deployable JOPES database. After the

10
  GAO-02-1049, “Contract Management: Guidance Needed for Using Performance-Based
 Service Contracting,” September 2002.



                                        8
January 2000 demonstration test, the Joint Staff agreed with U.S. Central
Command users that a deployable database was necessary. However, DISA
stated that adding deployability as another requirement would further delay
delivery of JOPES 21. Consequently, DISA and the Joint Staff waited until
November 2001 to review progress on fielding JOPES 21 before adding the
requirement for a deployable JOPES database to the JOPES contract in
April 2002. However, RID IV does not include the deployable database for
JOPES 21.11 In order to effectively develop JOPES 21, all validated requirements
that users need must be fully documented. The Director for Operations (J-3),
Joint Staff should ensure the requirement for a deployable database is included.
The Director for Operations (J-3), Joint Staff should also identify the
shortcomings of existing systems; identify command, control, communications,
computers, and intelligence support requirements; identify computer resource
constraints; and identify requirements in output-oriented and measurable terms, or
define the expected mission capability in various environments to the GCCS
requirements document.

Evolutionary Phased Implementation Plan. EPIP III, which was developed by
the GCCS Program Management Office and approved by the Assistant Secretary
of Defense (Command, Control, Communications, and Intelligence), was
prepared in accordance with the GCCS EAS. EPIP III states JOPES 21 will be
delivered during GCCS Phase III. Table 3-4 in EPIP III, section 3.7, “Phase III
Deliverables,” identifies “JOPES 2000” as a GCCS deliverable. EPIP III also
describes how the GCCS program plans to satisfy the requirements in the “Global
Command and Control System Phase III Requirements Identification Document,”
December 22, 1998, and contains the Evolutionary Phased Baseline for GCCS
Phase III as well as an integrated logistics support section for the GCCS program.

         Program Baselines. The GCCS EAS requires the establishment of a
functional equivalent to the Acquisition Program Baseline. A program baseline
establishes a management control mechanism to verify that the program meets
user requirements within resource constraints. All programs, without regard to
actual size, should have an approved program baseline at the time of program
initiation that should be modified only at subsequent program reviews or in
response to a program deviation. Each parameter included in the baseline must
establish both an objective (desired) and a threshold (minimum acceptable) value
necessary to satisfy user needs. The program manager should report program
deviations of cost, performance, or schedule within 30 days of the occurrence as a
means of providing program visibility to decision makers.

       DISA had not established a GCCS program baseline before EPIP III.
Consequently, there was no control mechanism to measure JOPES 21 efforts and
progress from 1998 through September 29, 2000. EPIP III provides a program
baseline that identifies a number of JOPES 21 requirements projected for fielding
in Phase III. However, the funding objectives and threshold amounts are at the
GCCS program level, not the JOPES 21 component level. Although JOPES 21
was identified as high risk, as of September 2000, DISA had not established a

11
  The JOPES Key Performance Parameters memoranda approved March 28, 2002, by the
 Joint Staff includes the deployable database.



                                       9
    program baseline at the component level of detail. Without a program baseline,
    reportable program deviations for JOPES 21 can be overlooked until the problems
    become more serious and expensive.

           The JOPES 21 program would benefit if DISA established a program
    baseline that addresses objective and threshold values for the system.

            Integrated Logistics Support. EPIP III addresses the need to satisfy
    integrated logistics support requirements, such as maintenance, software support,
    personnel, support documentation, configuration management, and hardware
    requirements, for GCCS Phase III. EPIP III does not adequately address the
    support requirements for the JOPES 21 operating system or database.

            If JOPES 21 is fielded as projected in March 2004, the operating system
    supporting JOPES 21 could be two software generations out of date. Solaris 8,
    released on February 1, 2000, is the JOPES 21 operating system.
    Sun Microsystems delivers a new release of its Solaris operating system
    approximately every 24 months. For example, Solaris 9 was released on
    May 29, 2002. Sun Microsystems provides approximately 4 years of standard
    support from the software release date for each Solaris version. After the 4 years
    of standard support, customers may contract for 5 additional years of support.12
    Therefore, when JOPES 21 is fielded in March 2004, the Solaris 8 operating
    system will have approximately 3 months of standard support remaining; an
    additional 5 years of support could be contracted for. DISA does not have a
    support plan to address software supportability of the Solaris operating system.
    DISA should develop and document an integrated logistics support plan to
    address software supportability of the Solaris operating system. The integrated
    logistics support plan should also address contingencies, such as additional delays
    in delivery, which could affect future cost and performance of JOPES 21.


Support Costs for JOPES Classic and JOPES 21
    From April 1998 through September 2002, DISA spent about $28.4 million to
    develop JOPES 21 and another $6 million to maintain JOPES Classic under two
    contracts, one with Science Application International Corporation and one with
    Pragmatics, without fielding an automated system that meets user requirements.
    DISA officials did not track JOPES 21 expenses separately, but our best estimates
    are shown in Table 2.




    12
      The 5 years of additional support covers 2 years of standard support with no material reduction
     in the level of support and 3 years with only telephone support and access to existing patches.



                                              10
                            Table 2. JOPES Contracts
                                   (in millions)

                                1998    1999     2000     2001     2002     Total

      SAIC1                     $1.9    $3.0     $3.7     $4.5     $3.6     $16.7
      Pragmatics2                3.6     2.7      2.5      4.3      4.6      17.7

       Total JOPES
       Investment               $5.5    $5.7     $6.2     $8.8     $8.2     $34.4
      Less
      JOPES (Classic)3            -       2.2      3.8       -       -        6.0
        Equals
        JOPES 21
        Development             $5.5    $3.5     $2.4     $8.8     $8.2     $28.4

      1
        Science Applications International Corporation; DCA100-97-D-0043.
      2
        Formerly DCA100-97-D-0026, now GS-35F-4810G.
      3
        Based on spending plan in EPIP III.



    The contract with Science Applications International Corporation provides
    technical support for both the JOPES Classic and JOPES 21 databases.
    Additionally, Science Applications International Corporation provided technical
    support for the integration of COTS tools, performance tuning, and development
    of an application to synchronize databases as a backup to commercial products.
    The Pragmatics contract provides for the design, development, maintenance, and
    testing of applications for both JOPES Classic and JOPES 21. The Block
    Implementation Plan IV cost estimate for the sustainment and phaseout of JOPES
    Classic and the completion and installation of JOPES 21 is $7.9 million.


Management Comments on the Finding and Audit Response
    DISA Comments. DISA stated JOPES 21 was never scheduled for delivery
    during Phase III, but was the objective solution for Phase III. DISA also stated
    that there was no requirement to establish a program baseline at the component
    level of detail, and no advantage to doing so, because component baselines would
    artificially restrict the trade space between the thresholds and the objectives for
    GCCS component performance, schedule, and cost. Further, the program
    manager uses a variety of tools internal to the program to manage the planning
    and execution of all the components that are part of GCCS. DISA also stated that
    there must be a trade-off between schedule and life cycle. To continually chase
    new technologies requires additional time and effort to develop, integrate, test,
    and field the new technology. Further, if plans and schedules were to be


                                           11
    reworked every time new technology became available, then nothing would ever
    be fielded.

    Audit Response. We revised the finding discussion to clarify our basis for
    considering JOPES 21 to be a deliverable. Although the GCCS program manager
    has a wide variety of internal program management tools to facilitate the timely
    delivery of JOPES 21, he has been unable to effectively use them. By combining
    high-risk component development efforts with other GCCS component
    developments, decision makers, who could facilitate the JOPES 21 development
    process, lack full awareness of cost, performance, and schedule deviations
    affecting JOPES 21. It was not our intent to direct DISA to chase new
    technology, but to consider the pace of emerging technology in the design of
    life-cycle support. Vendor support is one of the advantages of using COTS
    instead of Government off-the-shelf software. As the software approaches the
    end of its life cycle, the benefits in using COTS are negated because the
    Government can no longer take advantage of vendor support.


Recommendations, Management Comments and Audit
  Response
    Revised and Redirected Recommendation. As a result of Joint Staff comments,
    we revised and redirected Recommendation 2. and modified the finding
    discussion accordingly.

    1. We recommend that the Global Command and Control System program
    manager at the Defense Information Systems Agency improve controls and
    oversight over the Joint Operation Planning and Execution System 21 by:

          a. Negotiating performance-based service contracts for the
    development and fielding of Global Command and Control System high-risk
    components.

           b. Establishing a program baseline that addresses objective and
    threshold values for the system.

           c. Developing and documenting an integrated logistics support plan
    to address software supportability of the Solaris operating system. The
    integrated logistics support plan should also address contingencies, such as
    additional delays in delivery, which could affect future cost and performance
    of JOPES 21.

    DISA Comments. DISA concurred, stating that the GCCS program manager has
    directed the increased use of cost-plus-award-fee type contracts and has increased
    performance-based contracting awards from zero to six since FY 2002. DISA
    also stated that the Block IV Acquisition Program Baseline, approved on
    October 28, 2002, includes objective and threshold values for GCCS Block IV
    performance, schedule, and cost. Finally, DISA stated that the program manager
    started work on an integrated logistics support plan with an estimated completion
    date of September 30, 2003.


                                        12
       2. We recommend that the Director for Operations (J-3), Joint Staff
ensure that the Global Command and Control System requirements
documents accurately reflect current determinations as to necessary
requirements, to include adding the deployable database requirement;
describing the shortcomings of existing systems; identifying command,
control, communications, computers, and intelligence support requirements;
identifying computer resource constraints; identifying all requirements in
output-oriented and measurable terms; and defining the expected mission
capability in various environments.

Joint Staff Comments. The Vice Director, Joint Staff concurred with comment,
and suggested changing and redirecting the draft recommendation to the Director
for Operations (J-3), Joint Staff because the Chairman of the Joint Chiefs of Staff
and his directors do not have the authority to modify requirements documents.
The Vice Director also suggested that the recommendation be revised to include a
review of alternatives to JOPES Classic and JOPES 21. The Joint Staff Director
for Command, Control, Communications, and Computer Systems provided
similar comments. See the Management Comments section of the report for the
full text of both responses.

Audit Response. The Joint Staff comments are partially responsive. The audit
observed that alternatives were originally considered in selecting JOPES 21, and
we believe that further review of alternatives would be without basis. However,
we redirected and revised the recommendation to more fully conform to the
authority of the Joint Staff. We request that the Director for Operations, Joint
Staff provide comments in response to the final report.




                                    13
Appendix A. Scope and Methodology
   We reviewed applicable guidance and regulations that the Joint Staff, the
   combatant commands, and DISA used to monitor operational issues. We also
   reviewed their guidance and procedures pertaining to GCCS JOPES Classic and
   JOPES 21.

   We examined DoD guidance that governs the application and management of
   GCCS. We analyzed Chairman, Joint Chiefs of Staff (CJCS) Manual 6721.01,
   “Global Command and Control System Functional Requirements Evaluation
   Procedures,” March 15, 1997; CJCS Instruction 3141.01A, “Responsibilities for
   the Management and Review of Operation Plans,” February 15, 1999; CJCS
   Instruction 6721.01A, “Global Command and Control Management Structure,”
   November 27, 2000; CJCS Instruction 6722.01A, “Global Command and Control
   System Configuration Management Policy,” July 1, 2000; CJCS Instruction
   3020.01, “Managing, Integrating, and Using Joint Deployment Information
   Systems,” June 12, 2000; CJCS Guide 3122, “Time-Phased Force and
   Deployment Data Primer,” November 1, 2001; CJCS Manual 3122.01, “Joint
   Operation Planning and Execution System Volume I (Planning Policies and
   Procedures),” July 14, 2000; DoD Regulation 5000.2-R, “Mandatory Procedures
   for Major Defense Acquisition Programs and Major Automated Information
   System Acquisition Programs,” April 5, 2002; DoD Directive 8000.1,
   “Management of DoD Information Resources and Information Technology,”
   February 27, 2002; DoD Directive 5158.5, “Joint Deployment Process Owner,”
   November 12, 2001; and DoD Directive 5200.28, “Security Requirements for
   Automated Information Systems,” March 21, 1988.

   We also reviewed the User’s Guide for JOPES, May 1, 1995; GCCS JOPES,
   Performance Specifications, April 18, 2001; Joint Publication 3-35, “Joint
   Deployment and Redeployment Operations,” September 7, 1999; “GCCS
   Strategic Plan 1999-2002,” December 27, 1999; “JOPES Strategic Plan,” April
   2000; “Information Technology Management Reform Act” (Clinger-Cohen Act of
   1996) for performance measures for managing information technology; the
   Federal Acquisition Regulation, March 1998 and September 2001; and “Defense
   Planning Guidance,” FY 2004 through 2009, May 2002.

   We also reviewed implementing guidance developed by DISA. We reviewed the
   September 2000 EPIP III; the “Global Command and Control System
   Evolutionary Phase Implementation Plan for Phase IV, Draft (GCCS
   Versions 3.4.0 through 4.2.0),” June 29, 2001; Evolutionary Acquisition Strategy,
   July 14, 2000; the Global Command and Control System Requirements
   Identification Document for Phase III, December 22, 1998; Requirements
   Identification Document IV, October 6, 2000; and DAES reports, December 1999
   to March 2002.

   We analyzed JOPES Classic and JOPES 21 contracts DCA100-97-D-0043
   (covering April 1998 through May 2002), DCA100-97-D-0026 (covering
   February 1998 through April 2002), and GS-35F-4810G (covering April 2002
   through September 2002).



                                      14
    To identify the consequences of delays in fielding JOPES 21 and to determine
    whether the deployment process was executed properly, we:

           •   interviewed individuals responsible for developing and implementing
               JOPES from the Joint Staff directorates for Operations (J-3), Logistics
               (J-4), Command, Control, Communications, and Computer Systems
               (J-6), Operational Plans and Interoperability (J-7); Army, Navy, Air
               Force, and Marine Corps headquarters offices; selected unified
               commands (U.S. Southern Command, U.S. Joint Forces Command,
               U.S. European Command, U.S. Central Command, U.S.
               Transportation Command, and U.S. Special Operations Command);
               the Joint Staff Support Center; the Joint Deployment Training Center;
               and DISA to determine whether the deployment procedures were
               followed;

           •   conducted 52 meetings between April 2002 and October 2002 with
               about 230 individuals from the JOPES user community to determine
               whether JOPES was meeting their needs;

           •   analyzed Joint Universal Lessons Learned supporting Operations
               Enduring Freedom (covering December 2001 through March 2002)
               and JOPES historical data for actual problems with JOPES (covering
               August 2000 through January 2002); and

           •   reviewed contracts DCA100-97-D-0043, DCA100-97-D-0026, and
               GS-35F-4810G to identify the costs of developing JOPES 21 and the
               amounts spent for the maintenance of JOPES Classic since 1998.

    We performed this audit from March through December 2002 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    High-Risk Area. The General Accounting Office has identified several high-risk
    areas in DoD. This report provides coverage of the DoD Systems Modernization
    high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of those controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at the Joint Staff and DISA related to GCCS.



                                        15
We reviewed management controls over GCCS requirements generation and
program implementation. We also reviewed management’s self-evaluation
applicable to those controls.

Adequacy of Management Controls. We identified material management
control weaknesses within the Joint Staff and DISA as defined by DoD
Instruction 5010.40. Specifically, umbrella documents for the GCCS program did
not contain sufficient details to evaluate and monitor the development and
fielding of high-risk components of the system. All recommendations in this
report, if implemented, will provide the necessary controls to ensure JOPES
requirements are met and senior commanders and their staff follow established
procedures for planning and executing joint deployments. A copy of the report
will be provided to the senior officials responsible for management controls at the
Joint Staff and DISA.

Adequacy of Self-Evaluation. The Joint Staff identified GCCS as part of a
larger assessable unit; however, the Joint Staff did not perform any tests that
related to GCCS or JOPES. Therefore, the Joint Staff did not identify or report
the material management control weaknesses identified by the audit. DISA
addressed management controls as an assessable unit and performed tests of
controls on areas applicable to our audit objectives. DISA officials did not
perform adequate tests of controls to ensure that JOPES requirements were met.




                                    16
Appendix B. Prior Coverage
    During the last 5 years, the Inspector General of the Department of Defense
    (IG DoD), the Army Audit Agency, and the Air Force Audit Agency have issued
    seven reports discussing GCCS. Unrestricted IG DoD reports can be accessed at
    http://www.dodig.osd.mil/audit/reports. Unrestricted Army Audit Agency reports
    can be accessed at https://www.aaa.army.mil/reports from certain domains.
    Unrestricted Air Force Audit Agency reports can be accessed at
    https://www.afaa.hq.af.mil/afck/plansreports/reports from certain domains.


IG DoD
    IG DoD Report No. D-2002-133, “Global Command and Control System
    Readiness Assessment System Output Tool,” July 24, 2002

    IG DoD Report No. D-2002-084, “Guidance for the Global Command and
    Control System Common Operational Picture,” May 1, 2002

    IG DoD Report No. D-2001-168, “Acquisition Management of the Global
    Transportation Network,” August 2, 2001

    IG DoD Report No. D-2001-157, “Global Command and Control System –
    Meteorological and Oceanographic Application,” July 11, 2001

    IG DoD Report No. D-2000-063, “Information Technology Funding in the
    Department of Defense,” December 17, 1999


Army
    Army Audit Agency Report No. AA 99-87, “Global Command and Control
    System-Army Program,” January 22, 1999


Air Force
    Air Force Audit Agency Report No. 00058001, “Maintenance of Time-Phased
    Force and Deployment Data Files,” November 23, 2000




                                      17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Joint Staff
Director, Joint Staff
   Directorate for Operations (J-3)
   Directorate for Logistics (J-4)
   Directorate for Command, Control, Communications, and Computer Systems (J-6)
   Directorate for Operational Plans and Interoperability (J-7)

Department of the Army
Auditor General, Department of the Army
Commander, U.S. Army, Europe

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, U.S. Air Forces in Europe

Unified Commands
Commander, U.S. European Command
Commander, U.S. Pacific Command
Commander, U.S. Joint Forces Command
Commander, U.S. Southern Command
Commander, U.S. Central Command
Commander, U.S. Northern Command
Commander, U.S. Special Operations Command
Commander, U.S. Transportation Command


                                          18
Other Defense Organizations
Director, Defense Information Systems Agency
   Program Manager, Global Command and Control System

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        19
Joint Staff Comments
                            Final Report
                             Reference




                            Page 13




                            Page 13
                            Redirected
                            Revised




                       21
22
     Final Report
      Reference




     Redirected




     Revised




23
Defense Information Systems Agency
Comments




                     24
25
26
     Final Report
      Reference




     Revised




     Revised




27
Final Report
 Reference




Revised
Page 9


Page 8




Revised




               28
     Final Report
      Reference




     Footnote
     added
     Page 2




29
Final Report
 Reference




Footnote
added
Page 2




               30
Team Members
The Readiness and Logistics Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Evelyn R. Klemstine
George Cherry
Timothy A. Cole
Karen Ulatowski
Troy R. Zigler
Robert E. Martens
Nicholas Drotar
Elizabeth N. Shifflett
